   AUDIT OF THE OFFICE ON VIOLENCE AGAINST 

WOMEN COOPERATIVE AGREEMENT ADMINISTERED 

BY GIRLS EDUCATIONAL AND MENTORING SERVICES 

             NEW YORK, NEW YORK 





          U.S. Department of Justice 

        Office of the Inspector General 

                 Audit Division 



          Audit Report GR-70-12-003 

                  March 2012

           AUDIT OF THE OFFICE ON VIOLENCE AGAINST WOMEN 

              COOPERATIVE AGREEMENT ADMINISTERED BY 

             GIRLS EDUCATIONAL AND MENTORING SERVICES 

                         NEW YORK, NEW YORK


                               EXECUTIVE SUMMARY 


      The U.S. Department of Justice (DOJ) Office of the Inspector General,
Audit Division, has completed an audit of the cooperative agreement for the
Recovery Act Transitional Housing Assistance Program awarded by the Office
on Violence Against Women (OVW) to Girls Educational and Mentoring
Services (GEMS) under agreement number 2009-EH-S6-0029.1 The total for
this grant was $499,864. The purpose of this grant was to provide
transitional services primarily to commercially sexually exploited and/or
domestically trafficked young women because of their participation in the
commercial sex industry.

      The objective of our audit was to determine whether expenditures
claimed for costs under the awards were allowable, supported, and in
accordance with applicable laws, regulations, guidelines, and the terms and
conditions of the grants. We also assessed GEMS’ program performance in
meeting the grants’ objectives and overall accomplishments.

      We determined that GEMS was not in full compliance will all of the
essential grant conditions we tested. We found material weaknesses in
GEMS’ grant expenditures and Recovery Act reporting. As a result of these
conditions, we questioned $154,239 in unsupported expenditures and
provided a management improvement recommendation.

     These items are discussed in further detail in the Findings and
Recommendations section of the report. Our audit objectives, scope, and
methodology appear in Appendix II.

       We discussed the results of our audit with GEMS officials and have
included their comments in the report, as applicable. Additionally, we
requested a written response to our draft report from GEMS and OVW, and
their responses are appended to this report as Appendix III and IV,
respectively. Our analysis of both responses, as well as a summary of the
actions necessary to close the recommendations can be found in Appendix V
of this report.

       1
          Cooperative agreements are used when the awarding agency expects to be
substantially involved with the award’s activities. We refer to the cooperative agreement in
this report as a grant.



                                             -i- 
                                   TABLE OF CONTENTS


INTRODUCTION .......................................................................1 


Office on Violence Against Women .................................................1           

American Recovery and Reinvestment Act ......................................2                

Recovery Act Transitional Housing Assistance Program ..................... 2                  

Girls Educational and Mentoring Services........................................3             

Our Audit Approach .....................................................................3     


FINDINGS AND RECOMMENDATIONS........................................5 


Internal Control Environment .......................................................5

Personnel and Fringe Benefit Expenditures......................................6 

Other Grant Expenditures ............................................................ .9

Drawdowns ............................................................................. .10

Budget Management and Control................................................. 10

Reporting................................................................................ .11 

Compliance with Award Special Conditions .................................... 14 

Program Performance and Accomplishments ................................. 15

Conclusions .............................................................................. 16

Recommendations..................................................................... 16 


APPENDIX I - SCHEDULE OF DOLLAR-RELATED FINDINGS...... 17 


APPENDIX II - OBJECTIVES, SCOPE, AND METHODOLOGY ...... 18 


APPENDIX III – GIRLS EDUCATIONAL AND MENTORING 

    SERVICES RESPONSE TO THE DRAFT AUDIT REPORT...... 20 


APPENDIX IV – OFFICE ON VIOLENCE AGAINST WOMEN 

    RESPONSE TO THE DRAFT AUDIT REPORT ...................... 24 


APPENDIX V – OFFICE OF THE INSPECTOR GENERAL
    ANALYSIS AND SUMMARY OF ACTIONS NECESSARY
    TO CLOSE THE REPORT................................................... 26

                                   INTRODUCTION

       The U.S. Department of Justice (DOJ) Office of the Inspector General,
Audit Division, has completed an audit of cooperative agreement number
2009-EH-S6-0029 awarded by the Office on Violence Against Women
(OVW). OVW made the award under its Recovery Act Transitional Housing
Assistance Grant for Victims of Domestic Violence, Dating Violence, Stalking,
and Sexual Assault to Girls Educational and Mentoring Services (GEMS).2
This grant was awarded on August 6, 2009, in the amount of $499,864 and
is projected to end on July 31, 2012.

       The Recovery Act Transitional Housing Assistance grant for Victims of
Domestic Violence, Dating Violence, Stalking, and Sexual Assault provided
GEMS with funds for transitional services primarily to commercially sexually
exploited and/or domestically trafficked young women who experienced
sexual assault, domestic violence, dating violence, and stalking as a result of
their participation in the commercial sex industry.

      The objective of our audit was to determine whether reimbursements
claimed for costs under the grant were allowable, supported, and in
accordance with applicable laws, regulations, guidelines, and the terms and
conditions of the grant. We also assessed GEMS program performance in
meeting grant objectives and overall accomplishments.

Office on Violence Against Women

       The Office on Violence Against Women (OVW), within the DOJ,
provides primary management and oversight of the grant we audited. The
OVW’s stated mission is to provide national leadership in developing the
nation's capacity to reduce violence against women through the
implementation of the Violence Against Women Act (VAWA). The OVW
administers financial and technical assistance to communities across the
country that are developing programs, policies, and practices aimed at
ending domestic violence, dating violence, sexual assault, and stalking.
Currently, OVW administers 2 formula grant programs and 17 discretionary
grant programs which were established under VAWA and subsequent
legislation. By forging state, local, and tribal partnerships among police,
prosecutors, victim advocates, health care providers, faith leaders, and
others, OVW grant programs are intended to help provide victims with the
protection and services they need to pursue safe and healthy lives, while


       2
          Cooperative agreements are used when the awarding agency expects to be
substantially involved with the award’s activities. We refer to the cooperative agreement in
this report as a grant.


                                           - 1 -

simultaneously enabling communities to hold offenders accountable for their
violence.

American Recovery and Reinvestment Act

      On February 17, 2009, the President signed into law the American
Recovery and Reinvestment Act of 2009 (Recovery Act). The purposes of
the Recovery Act are to: (1) preserve and create jobs and promote
economic recovery; (2) assist those most impacted by the recession;
(3) provide investments needed to increase economic efficiency by spurring
technological advances in science and health; (4) invest in transportation,
environmental protection, and other infrastructure that will provide long
term economic benefits; and (5) stabilize state and local government
budgets in order to minimize and avoid reductions in essential services and
counterproductive state and local tax increases.

      The OVW awarded funds under the Recovery Act to increase the
availability of transitional housing and related support services for victims of
domestic violence, dating violence, sexual assault, and stalking.

Recovery Act Internet Transitional Housing Assistance Grants for
Victims of Domestic Violence, Dating Violence, Stalking and Sexual
Assault Grants

       The Transitional Housing Assistance Grants for Victims of Domestic
Violence, Dating Violence, Stalking and Sexual Assault Grants were funded
by the Recovery Act of 2009 (Public Law 111-5) and by 42 USC § 13975.
The OVW Recovery Act Transitional Housing Assistance Grants for Victims of
Domestic Violence, Dating Violence, Stalking, or Sexual Assault Program
(Recovery Act Transitional Housing Assistance Program) focuses on a
holistic, victim-centered approach to provide transitional housing services
that move individuals into permanent housing. Grants support programs
that provide assistance to victims of domestic violence, dating violence,
sexual assault, and stalking who are in need of transitional housing, short-
term housing assistance, and related support services. It is critical that
successful transitional housing programs provide a wide range of flexible and
optional services that reflect the differences and individual needs of victims
and that allow victims to choose the course of action that is best for them.
Transitional housing programs can meet the goals of the Recovery Act
through employing victim advocates and other personnel to assist victims,
renovating housing for victims, offering additional housing units, and
increasing job opportunities for of victims through training, education, and
other support services.



                                      - 2 -

      The purpose of this program was to provide assistance to individuals
who are homeless or in need of transitional housing or other housing
assistance as a result of fleeing a situation of domestic violence, dating
violence, sexual assault, or stalking, and for whom emergency shelter
services or other crisis intervention services are unavailable or insufficient.
Grant 2009-EH-S6-0029 was funded under this program.

Girls Educational and Mentoring Services

       Girls Educational and Mentoring Services’ (GEMS) mission is to
empower girls and young women, ages 12-21, who have experienced
commercial sexual exploitation and domestic trafficking to exit the
commercial sex industry and develop to their full potential. According to
GEMS’ website, the organization is committed to ending commercial sexual
exploitation and domestic trafficking of children by changing individual lives,
transforming public perception, and revolutionizing the systems and policies
that impact sexually exploited youth. GEMS was formed in 1998 by a young
woman who had been sexually exploited herself as a teenager and now
serves as its Executive Director. GEMS described itself as one of the largest
providers of services to commercially sexually-exploited and domestically
trafficked youth in the U.S.

      GEMS provides a variety of programs to approach the issue of sexual
exploitation. These programs are: prevention and outreach, intervention,
youth development, educational initiatives, transitional and supportive
housing, court advocacy, alternative to incarceration program, and family
court program. GEMS also provides training and technical assistance to
organizations and institutions, which in turn provide their staff with the
knowledge and tools to understand and address commercial sexual
exploitation and domestic trafficking of children and youth. GEMS receives
50 percent of its operational funding from government grants (federal, state,
and local) and 50 percent from private donations.

Our Audit Approach

      We tested compliance with what we considered to be the most
important conditions of the grants. Unless otherwise stated in our report,
we applied the Office of Justice Programs (OJP) Financial Guide as our
primary criteria during our audit. The OJP Financial Guide serves as a
reference manual assisting award recipients in their fiduciary responsibility
to safeguard grant funds and ensure that funds are used appropriately and
within the terms and conditions of awards. Additionally, the OJP Financial
Guide cites applicable Office of Management and Budget (OMB) and Code of



                                      - 3 -

Federal Regulations (CFR) criteria that we also considered in performing our
audit. We tested GEMS’:

     	 Internal control environment to determine whether the financial
        and accounting system and related internal controls were adequate
        to safeguard grant funds and ensure compliance with the terms and
        conditions of the grant.

     	 Personnel and fringe benefit expenditures to determine
        whether the personnel and fringe benefit expenditures charged to
        the grant were allowable, supported, accurate, and whether
        positions were within the approved grant budget.

     	 Grant expenditures to determine whether the costs charged to
        the grant were allowable and adequately supported. 

     	 Drawdowns (requests for grant funding) to determine whether
        requests for reimbursement, or advances, were adequately
        supported, and if GEMS managed grant receipts in accordance with
        federal requirements.

     	 Budget management and control to determine whether GEMS
        adhered to the OVW-approved award budgets for the expenditure
        of grant funds.
      
     	 Reporting to determine whether the required periodic Federal
        Financial Reports, Progress Reports, and Recovery Act Reports were
        submitted on time and accurately reflected grant activity.
         
     	 Compliance with award special conditions to determine
        whether GEMS complied with all of the terms and conditions
        specified in the individual grant award documents.

     	 Program performance and accomplishments to determine
        whether GEMS achieved grant objectives, and to assess
        performance and grant accomplishments.

      Where applicable, we also tested for compliance in the areas of
indirect costs, matching funds, accountable property, program income,
monitoring of contractors, and monitoring of subgrantees. For this grant, we
determined that GEMS charged no indirect costs, matching funds were not
required, there was no accountable property, the grant-funded programs
generated no program income, and there were no contractors or
subgrantees.


                                    - 4 -

                  FINDINGS AND RECOMMENDATIONS

       COMPLIANCE WITH ESSENTIAL GRANT REQUIREMENTS

       We determined that GEMS was not in full compliance with all
       of the essential grant requirements in the areas we tested for
       this award. We found internal control weaknesses in the
       following areas: (1) personnel and fringe benefit
       expenditures, (2) grant expenditures, and (3) Recovery Act
       reporting. As a result of these weaknesses, we questioned
       $154,239 in unsupported expenditures. These conditions,
       including the underlying causes and potential effects on the
       OVW program, are further discussed in the body of this
       report.

Internal Control Environment

      GEMS had an internal control system in place to safeguard funds and
assure they are used solely for authorized purposes. However, our review of
internal controls specific to the areas we examined disclosed some instances
where the established internal control system was not always operating as
intended.

       We began this audit by reviewing GEMS’ accounting and financial
management system to assess the organization’s risk of noncompliance with
laws, regulations, guidelines, and the terms and conditions of the grant. We
also interviewed management staff from the organization, performed
transaction testing, and reviewed financial and performance reporting
activities to further assess the risk.

      According to the OJP Financial Guide, award recipients are responsible
for establishing and maintaining an adequate system of accounting and
internal controls. An acceptable internal control system provides cost and
property controls to ensure optimal use of funds. Award recipients must
adequately safeguard funds and assure they are used solely for authorized
purposes.

      While our audit did not assess GEMS’ overall system of internal
controls, we did review the internal controls of GEMS’ financial management
system specific to the administration of DOJ funds during the periods under
review. Specifically, we determined that while GEMS had written internal
control procedures to govern the use of federal funds, it did not ensure that
controls in place were working as intended. Specifically, GEMS did not
establish an adequate methodology to allocate personnel and fringe benefit


                                    - 5 -

expenditures and failed to maintain adequate supporting documentation for
some non-personnel grant expenditures. From our review and testing, we
concluded that this condition contributed to noncompliance with some grant
requirements. The internal control deficiencies that we identified are
discussed in detail later in this report. The absence of an adequate and
effectively functioning internal control environment places award funds at
risk and undermines the ability of the recipient to ensure that federal funds
are being adequately safeguarded and spent accurately and properly in
accordance with the grant objectives. In our opinion, GEMS management
should correct the internal control deficiencies we identified.

Personnel and Fringe Benefit Expenditures

      In general, GEMS correctly ensured that the gross payroll amounts
from the timesheets we tested were in accordance with the approved
budget. In addition, we determined that, excluding the Executive Director,
the remaining GEMS staff members’ timesheets that we tested had sufficient
evidence of supervisory approval. We also found that the personnel and
fringe benefit charges we tested from the accounting system were within the
amounts approved by OVW in the grant budget. However, GEMS did not
have an adequate process in place to document the allocation of each staff
member’s actual activity charged to the grant. As a result, we could not
determine if the personnel and fringe benefit expenditures charged to the
grant were properly allocated to the grant. Consequently, we questioned
$119,907 in personnel expenditures and $32,973 in fringe benefits as
unsupported.

      2 C.F.R. § 230, formerly known as OMB Circular A-122, requires that
personnel charges to awards be supported by personnel activity reports.
Specifically, the guidance states that charges to awards for salaries and
wages, whether treated as direct costs or indirect costs, will be based on
documented payrolls approved by a responsible official of the organization.
The guidance goes on to say that the distribution of salaries and wages to
awards must be supported by personnel activity reports.

       Moreover, the CFR requires that the personnel activity reports should
account for an employee’s total activity and the portion of the activity
charged to the award. Additionally, the reports should: reflect an after-the-
fact distribution of the actual activity of each employee, account for the total
activity of each employee, be prepared at least monthly, coincide with one
or more pay periods, and be signed by the employee. These reports should
also be reviewed and approved on a regular basis by a supervisory official
having first-hand knowledge of the work performed. The approving official



                                     - 6 -

could document the review and approval by signing or initialing each
employee’s time and/or effort report.

      GEMS officials provided us with a list of personnel and fringe benefit
expenditures totaling $152,880 for this grant as of March 31, 2011. We
tested a judgmental sample of personnel and fringe benefit expenditures
during two non-consecutive pay periods. We tested a total of $4,029 in
personnel expenditures and $1,811 in fringe benefit expenditures for two
employees.

      We tested a sample of expenditures to determine if personnel and
fringe benefit expenditures were charged correctly in accordance with the
budget, properly authorized, accurately recorded, and properly allocated in
GEMS’ accounting system. To determine if the personnel expenditures were
charged correctly, we compared the gross amount from the payroll register
to the budget-approved salary per pay period. To determine if personnel
expenditures were properly authorized, we reviewed grant funded staff
member timesheets for evidence of supervisory approval. To determine if
the personnel expenditures were properly recorded, we verified that
amounts from GEMS’ accounting system matched the grant budgeted
amounts. To determine if personnel expenditures were properly allocated,
we reviewed the staff members’ timesheets and GEMS allocation
spreadsheet. To determine if fringe benefits were correctly computed, we
recalculated the fringe benefit expenditures for each of the pay periods we
tested by multiplying the amount allocated to the grants for each staff
member by the approved budgeted percentage. To determine if fringe
benefits were consistent amongst staff members, we compared the amounts
charged for each staff member. Finally, to determine if fringe benefits were
properly charged to the grant, we compared the approved budget for fringe
benefits to the amounts charged in GEMS’ accounting system.

      From our testing we determined that personnel and fringe benefit
expenditures were charged correctly in accordance with the grant budget,
and the expenditure amounts tested from the accounting system also
matched the grant budget. However, we were unable to determine if all of
the personnel expenditures we tested were properly allocated. GEMS, in its
approved grant budget, was specific about the percentage of staff time to be
spent on grant-specific tasks. GEMS used timesheets to document time
worked per pay period for all staff. GEMS officials told us that the original
timesheet was most likely modeled after a generic non-profit timesheet and
GEMS did not understand the importance of using the program column to




                                     - 7 -

allocate time spent on grant-specific activities.3 Consequently, the GEMS’
Fiscal Manual we were told did not require staff to fill-in the program column
as part of the payroll process. According to a GEMS official, during a 2009
Recovery Act training, GEMS learned that the program column on its
timesheet was insufficient to properly allocate staff time because there were
more than one funding source for the activities being performed.4

       GEMS also maintained an allocation spreadsheet to document the
effort/time spent on grant related activities. An allocation spreadsheet can
be used as a substitute for an activity report if it met all the requirements
outlined in the OJP Financial Guide. GEMS used the allocation spreadsheet
to ensure that it remained within the approved budgeted percentage of time
for each staff member for a particular grant. However, the allocation
spreadsheet did not show actual activity worked in a given time period for a
specific grant as required by the OJP Financial Guide. According to a GEMS
official, GEMS paid close attention to the percentages being charged to the
grant on a larger scale; making sure it does not exceed the approved
budgeted percentages for each staff member at year/project end. In
addition, GEMS conducted quarterly meetings with Program Directors and
other staff to review the allocation spreadsheet to ensure that allocations
properly represent the work performed by each staff member and are
consistent with the approved budget.

       We reviewed GEMS allocation spreadsheet and found it inadequate to
support the allocation of personnel costs charged to the grant because it did
not meet certain criteria listed in the OJP Financial Guide. Specifically, the
allocation spreadsheet was not based on actual activities performed by the
staff, instead it was based on budgeted percentages, it was prepared
quarterly, not at least monthly, it was not signed by the employee, and
there was no evidence that it was reviewed or approved by a supervisory
official.

      In May 2011, GEMS told us that it was in the process of implementing
an online allocated timesheet system as part of the current payroll system.
GEMS expected the online allocated timesheet system to replace its paper
timesheets over the summer of 2011. GEMS told us that the new allocated

       3
          In its response, GEMS stated that this statement from its official was never meant
to imply that GEMS does not understand the importance of allocating time towards specific
programs and their corresponding sources of funding. GEMS further explained that the
comment was meant to explain that GEMS did not feel the program column fit the purpose
it needed to serve in order to be in compliance.
       4
          In its response, GEMS stated that the program column was never designed to
allocate staff time and effort to specific contracts.   


                                           - 8 -

timesheet will require staff to enter the hours worked on a particular project
daily then calculate the percentage of time spent on a particular project. In
addition, the new automated timesheet was expected to be prepared bi-
weekly and signed by the staff member and supervisory officials. We did not
test the new automated timesheet system because it was not fully
implemented at the time of our field work. However, based on what we
were able to observe about the new system, it appears that the new
timesheet may meet the requirements of an activity report as outlined in the
OJP Financial Guide provided the system is fully implemented and works as
intended.

     Our audit identified questioned costs of $119,907 in unsupported
personnel expenditures and $32,973 in unsupported fringe benefit
expenditures as of March 31, 2011. Because the calculation of fringe benefit
expenditures are based directly on personnel expenditures as either a
percentage or fixed amount for each staff member based on time spent
working on the grant, we determined fringe benefit expenditures were not
adequately supported.

Other Grant Expenditures

      In general, we found that GEMS properly recorded in the accounting
records the non-personnel and non-fringe grant expenditures we tested.
Specifically, we selected 27 non-personnel and non-fringe benefit
expenditure transactions totaling $18,259 for detailed review and analysis
from the grant. To determine if other grant expenditures were properly
recorded, we verified that amounts from GEMS’ accounting system matched
the budgeted amounts. To determine if expenditures were allowable, we
compared the expenditures to the award budget, permissible uses of funds
outlined in the OJP Financial Guide, and the terms and conditions of the
awards. To determine if expenditures were supported, we reviewed
purchase documents, invoices, and accompanying accounting system data.

      GEMS created separate cost centers within their accounting system to
segregate and specifically track grant expenditures. GEMS officials provided
us with a transaction list of grant-funded non-personnel and non-fringe
benefit expenditures totaling $47,649. The primary transactions included
expenditures for rent, travel, and other expenditures.5 We tested a
judgmental sample of 27 invoices totaling $18,259, or 38 percent of non-
personnel and non-fringe benefit funds expended as of November 2010.




      5
          Other expenditures consist of furniture, supplies, and utilities.


                                              - 9 -

      After sampling 27 transactions, we found no evidence of unallowable
expenditures; however, we identified unsupported expenditures of $1,359.
These unsupported expenditures included costs associated with travel and
program supplies. In our view, when expenditures are unsupported it
could increase the risk of fraud, waste, and abuse of federal funds. GEMS
has since begun to scan all supporting documentation and cancelled checks
to ensure that both electronic and hard copies are kept for future reference.

Drawdowns

      We found GEMS’ drawdown process to be adequate in minimizing the
time lapse between the drawdown of funds and disbursement of those
funds. As of May 16, 2011, GEMS had drawn down $247,920 of the original
award amount of $499,864.

      The OJP Financial Guide establishes methods by which the DOJ makes
payments to grantees. According to the Guide, grant recipients should
request funds based on immediate disbursement/reimbursement
requirements. It also states that recipients should time their drawdown
requests to ensure federal cash on hand is the minimum needed for
disbursements/reimbursements to be made immediately or within 10 days.
Nonprofit organizations shall account for interest earned on federal funds
and may keep up to $250 per federal fiscal year.

      To determine if drawdowns were completed in advance or on a
reimbursement basis, we interviewed grant officials, analyzed bank
statements, and reviewed documentation in support of actual expenditures.
We determined that grant funds were requested on a reimbursement basis.
In addition, we determined that drawdowns were requested based on actual
expenditures and did not exceed grant expenditures. As a result, we found
that GEMS’ drawdown procedures were adequate and complied with grant
requirements.

Budget Management and Control

      The OJP Financial Guide addresses budget controls surrounding
grantee financial management systems. According to the Financial Guide,
grantees are permitted to make changes to their approved budgets to meet
unanticipated program requirements. However, the movement of funds
between approved budget categories in excess of 10 percent of the total
award must be approved in advance by the awarding agency. In addition,
the Financial Guide requires that all grantees establish and maintain an
adequate system for accounting and internal controls.




                                    - 10 -
       According to a GEMS official, GEMS reviewed expenditures during
monthly reconciliations to ensure that expenditures stayed within the
approved budget for the award. In addition, GEMS retained copies of OMB
Circulars, OJP fiscal training documents, and created internal documents
outlining federal fiscal requirements to ensure compliance with the budget
management requirements. A GEMS official said packets were created
explaining special requirements, due dates, and other important information
pertaining to each DOJ grant and these packets were distributed to staff.

       We compared the total expenditures by budget category from the
GEMS accounting system to the budget categories established by OVW’s
final budget revision. While this grant was still in progress at the time of our
audit, GEMS remained within the approved allowance. Based on the
documentation we reviewed, it appears GEMS monitored its grant
expenditures and submitted budget modifications and Grant Adjustment
Notices (GANs). For this grant, we also found evidence of an ongoing
budget versus actual expenditure comparison.

Reporting

Federal Financial Reports

      The financial aspects of OVW grants are monitored through Federal
Financial Reports (FFRs).6 According to the OJP Financial Guide, FFRs should
be submitted within 30 days of the end of the most recent quarterly
reporting period. Even for periods when there have been no program
outlays, a report to that effect must be submitted. Funds or future awards
may be withheld if reports are not submitted or are excessively late.

       For this award, GEMS officials told us they completed the FFRs using
their quarterly expense reports. We tested the four most recent FFRs for
this grant by comparing the expenditures reported on the FFRs to GEMS’
quarterly expense reports and concluded that each of the four reports were
accurate.

      We also tested each FFR for timeliness using the criteria noted above
and found GEMS submitted three of its four FFRs within the time period
specified by OJP. We found one report was submitted two days late, but we
considered this lateness immaterial. Because each of the FFR’s we tested

       6
          Effective for the quarter beginning October 1, 2009, grant recipients must report
expenditures online using the Federal Financial Report (FFR-425) Form no later than 30
days after the end of each calendar quarter. The final report must be submitted no later
than 90 days following the end of the grant period. These reports are no longer called
Financial Status Reports.  


                                           - 11 -
was accurate and submitted in a timely manner, we concluded GEMS met
OJP’s financial reporting standards.

Progress Reports

      Progress reports provide information relevant to the performance of an
award-funded program and the accomplishment of objectives as set forth in
the approved award application. According to the OJP Financial Guide, these
reports must be submitted twice yearly, within 30 days after the end of the
reporting periods of June 30 and December 31, for the life of the award.

      At the time of our audit, GEMS was required to submit three progress
reports. We tested the timeliness of all three progress reports and
determined that one of the three progress reports was submitted on time.
Two of the three progress reports were submitted one day late because the
due date fell on a weekend. Because the two late reports were submitted
only one day late, we did not consider the lateness to be material.

      To measure the accuracy and completeness of the progress reports,
we tested two reports to determine if the reports contained statistical data,
included accomplishments related to the program’s objectives, and
accurately reported the data. We found the two progress reports we
reviewed accurately described work accomplished to meet the program’s
objectives.

Recovery Act Reports

       In addition to the normal reporting requirements, grantees receiving
Recovery Act funding must submit quarterly reports which require both
financial and programmatic data. Reports are due within 10 calendar days
after the end of each calendar quarter, beginning with the July to September
2009 reporting period. As of October 10, 2009, these reports must also
include the cumulative activities and projects funded since the enactment of
the Recovery Act, or February 17, 2009. Recipients that received recovery
funds from a federal agency are required to submit these reports to that
agency, which should contain the following information:

   	 the total amount of recovery funds received from that agency;

   	 the amount of recovery funds received that were expended or 

      obligated to projects or activities; and 


   	 a detailed list of all projects or activities for which recovery funds were
      expended or obligated, including: the name of the project or activity,


                                     - 12 -
       a description of the project or activity, an evaluation of the completion
       status of the project or activity, an estimate of the number of jobs
       created and the number of jobs retained by the project or activity, and
       detailed information on any subcontracts or subgrants awarded by the
       recipient.

      GEMS submitted quarterly Recovery Act reports on time with all of the
required information. We reviewed the submitted Recovery Act Reports for
both accuracy and timeliness. Between July 2009 and September 2010,
GEMS was required to submit five Recovery Act Reports for this grant, and
we found that GEMS submitted all of the reports on time.

       According to the criteria listed above, GEMS was required to report the
total amount of recovery funds received, the amount of recovery funds that
were expended or obligated to this project, and a detailed list of all projects
for which recovery funds were expended or obligated. No subgrantees were
paid with Recovery Act funds. We determined that GEMS reported on all of
the required information for the five quarters we reviewed.

      We reviewed the accuracy of four quarters of Recovery Act Reports
from October 2009 to September 2010. At the time we began our review,
the report which covered October to December 2010 was not due until
January 30, 2011. Therefore, we reviewed the four quarters before this
period. We found that GEMS’ accounting records included more
expenditures than were reported as expended for the period on the
Recovery Act Reports submitted to OVW. GEMS stated the reason for
overage of expenditures was because it was waiting for OVW to approve a
budget modification and it wanted to ensure it did not include unallowable
expenditures on these reports. Because GEMS did not report an excess of
expenditures on these reports, we take no issue with this.

      However, we found full time equivalent (FTE) calculation errors in
three of the four Recovery Act Reports GEMS submitted to OVW. As stated
above, an estimate of the number of jobs created and the number of jobs
retained by the project or activity is required to be reported in these reports.
According to OJP’s website, the DOJ has developed various guidance
documents and tools to assist Recovery Act recipients in meeting their
reporting requirements. One of these tools is the “jobs calculator”.7 We
used the jobs calculator to verify the information GEMS reported to the
OVW. After inputting the information into the jobs calculator, we found


       7
          The jobs calculator is a template recipients can use to obtain an FTE calculation.
The jobs calculator is a suggested method for calculating the number of created and
retained jobs.


                                            - 13 -
differences in the FTEs GEMS reported in three of the four reports to the
OVW. The following table shows the differences found.

                    OVW Grant 2009-EH-S6-0029
           FTE         Jobs Created
 ComparisonReport      per Quarterly  OIG FTE              (Over)/Under
       Periods           Reports     Calculation             Reported
October-December 2009       0.88        0.88                   0.00
January-March 2010          2.00        1.10                  (0.90)
April-June 2010             2.00        1.10                  (0.90)
July-September 2010         2.00        1.10                  (0.90)
     Source: GEMS accounting records and OIG analysis

      GEMS agreed that the information reported was not accurate in the
above mentioned instances because it was reporting each position as one full
FTE, even though only partially funded. As of April 2011, GEMS had made
OVW aware of the errors and was awaiting guidance from OVW on how to
handle the issue. Since Recovery Act activity is available to the public and
Congress, significant reporting errors can skew the resulting effect of the
Recovery Act on the Nation’s economic recovery.

      As mentioned earlier in this report, we were unable to determine if
personnel expenditures were properly allocated to the grants. Absent an
adequate allocation methodology, we could not certify that the GEMS
personnel reported in the Recovery Act reports actually worked on Recovery
Act grant-related activities. However, GEMS has plans to institute a new
allocated timesheet system which would calculate the percentage of time
spent on a particular project. GEMS officials said it will begin
implementation of this system in the summer of 2011. In our opinion, the
new allocated timesheet may reflect the time a staff member spends on
grant-related activities provided the system is fully implemented and works
as intended.

Compliance with Award Special Conditions

      Award special conditions are included in the terms and conditions for
each award and are provided in the accompanying award documentation.
The special conditions may also include special provisions unique to the
award. We reviewed the special conditions found in the award documents
and the accompanying adjustment notices and found that GEMS did not fully
comply with a special condition specific to Recovery Act reporting
requirements. This special condition was associated with the calculation of
FTEs for reporting jobs created with Recovery Act grant funding. The details


                                     - 14 -
of these exceptions are discussed under the Reporting section of this report.
We found noncompliance with this special condition for this Recovery Act
grant.

Program Performance and Accomplishments

       According to the program narrative, the goal of this grant was to
provide transitional services primarily to commercially sexually exploited
and/or domestically trafficked young women who have experienced sexual
assault, domestic violence, dating violence and stalking as a result of their
participation in the commercial sex industry, while preserving and creating
jobs for economic recovery.

      GEMS measured progress towards achieving these goals and
objectives through its case management system. This system is used to
support case management and timely program reporting. It was also used
to track the young women who graduated from school, currently in school,
seeking employment, or are in a healthy relationship attained through
financial literacy and support groups.

      As of December 2010, GEMS stated it had served six victims/survivors
and two children. We verified that GEMS served these victims/survivors by
reviewing case notes and case management information. In addition, GEMS
stated they have created two jobs: a program director and a support
services coordinator.

      Although our assessment of performance and accomplishments is
limited to the data we reviewed, we concluded that GEMS collected
appropriate data, analyzed the data, and provided us with evidence
demonstrating that GEMS is on track to achieving the goals and objectives
by the end of the grant period in July 2012.

Program Sustainability

      In its program narrative, GEMS stated it receives ongoing general
operating support from 10 private foundations, which will sustain the
supplemental support services including counseling and case management
that young women in the OVW Transitional Housing Program will receive.
GEMS stated support from these and other foundations in the future will be
applied to the Transitional Housing Program once federal funds are no longer
available. GEMS also believes that the pre-existing partnerships between
GEMS and its collaborating partners on behalf of this population are evidence
of a widespread commitment to these services, and will ensure that these
services continue after the life of the grant.


                                    - 15 -
      We are reporting on what GEMS told the audit team and made no
assessment on program sustainability. However, from our collective audit
work, we believe the absence of OVW grant funding could potentially disrupt
and impair the ability of GEMS to furnish ongoing transitional services to
commercially sexually exploited and domestically trafficked young women.

Conclusions

      GEMS did not fully comply with all of the grant award requirements we
tested. We found internal control weaknesses in GEMS’ grant expenditures,
and Recovery Act reporting.

      We found that GEMS charged $154,239 to the award for grant
expenditures that were unsupported. We also found significant reporting
errors in the calculation of FTEs submitted on the Recovery Act reports.

Recommendations

We recommend that OVW:

    1. Remedy $119,907 in unsupported personnel expenditures and
       $32,973 in unsupported fringe benefit charges.

    2. Remedy $1,359 in unsupported non-personnel and non-fringe
       benefit grant expenditures.

     3. Ensure GEMS has implemented and adheres to procedures that will
        result in the accurate submission of Recovery Act reports.




                                   - 16 -
                                                                          APPENDIX I

                                                                                     


                SCHEDULE OF DOLLAR-RELATED FINDINGS


QUESTIONED COSTS:                                        AMOUNT               PAGE

Unsupported Expenditures – personnel                         $ 119,907             6

Unsupported Expenditures – fringe                             $ 32,973             6
benefits

Unsupported Expenditures – non-                                 $ 1,359           10
personnel and non-fringe benefits

TOTAL OF QUESTIONED COSTS:                                  $ 154,239

TOTAL DOLLAR-RELATED FINDINGS:                              $ 154,239



Questioned Costs are expenditures that do not comply with legal, regulatory, or
contractual requirements, or are not supported by adequate documentation at the time of
the audit, or are unnecessary or unreasonable. Questioned costs may be remedied by
offset, waiver, recovery of funds, or the provision of supporting documentation.




                                         - 17 - 
                                                               APPENDIX II

                                                                           


               OBJECTIVES, SCOPE, AND METHODOLOGY

      The purpose of our audit was to determine whether reimbursements
claimed for costs under grant 2009-EH-S6-0029 were allowable,
supported, and in accordance with applicable laws, regulations,
guidelines, and the terms and conditions of the grants. We also assessed
grantee program performance in meeting grant objectives and overall
accomplishments. The objective of our audit was to review activities in
the following areas: (1) internal control environment, (2) personnel and
fringe benefit expenditures, (3) non-personnel and non-fringe benefit
grant expenditures, (4) drawdowns, (5) budget management and control,
(6) reporting, (7) compliance with grant requirements, and (8) program
performance and accomplishments. We determined that program income,
matching costs, indirect costs, accountable property, and the monitoring
of subgrantees and contractors were not applicable to this grant.

      We conducted this performance audit in accordance with Generally
Accepted Government Auditing Standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence
to provide a reasonable basis for our findings and conclusions based on
our audit objectives. We believe that the evidence obtained provided a
reasonable basis for our findings and conclusions based on our audit
objectives.

      In conducting our audit, we performed sample testing in five areas:
personnel and fringe benefit expenditures, non-personnel and non-fringe
benefit grant expenditures, Federal Financial Reports, Progress Reports, and
Recovery Act Reports. In this effort, we employed a judgmental sampling
design to obtain broad exposure to numerous facets of the grants reviewed,
such as dollar amounts or expenditure category. This non-statistical sample
design did not allow projection of the test results to the universes from
which the samples were selected.

      We audited the Office on Violence Against Women Grant
2009-EH-S6-0029. The grantee had a total of $247,920 in requests for
grant funding for this grant through May 2011. Our audit concentrated
on, but was not limited to, the award of the original grant in August 2009,
through May 2011.

      We tested compliance with what we consider to be the most important
conditions of the grant. Unless otherwise stated in our report, the criteria
we audit against are contained in the Office of Justice Programs Financial
Guide, the Code of Federal Regulations, and grant award documents.


                                    - 18 -
 
 


       In addition, reviewed the timeliness and accuracy of Federal Financial
Reports, Progress Reports, and Recovery Act Reports; and evaluated
performance to grant objectives. However, we did not test the reliability of
the financial management system as a whole and reliance on computer
based data was not significant to our objective.




                                    - 19 - 
                                                                                                    APPENDIX III

                                                                                                                 


              GIRLS EDUCATIONAL AND MENTORING SERVICES 

                 RESPONSE TO THE DRAFT AUDIT REPORT 





    September IS, 201 1

    Thomas 0, Puer.ecr
    Regional Audit Manager
    Philadelphia Regional Audit Office
    Office of the Inspector General
    U,S, Department of Justice
    70 I Market Street, Suite 20 I
    Philadelphia, PA 19106


    Respon se to; Draft Audit Report, Audit ofthe Office on Violence Against Women Cooperative Agreement
    Administered by Girls Educational and MenlOring Services Nim' York, New York


    Dear Mr. Puerzer,

    As of August 25, 20 II. Girls Educational and Mentoring Services (GEMS) has bt:en in receipt of your office's
    draft audit report cited above. Ha ving carefully reviewed the contents of the report. we arc issuing the following
    responses to your recommendations on a rccommendation by recommenda tion basis:

    Re medy Recommendatio n 1; The Office of the Inspector General (OIG) recommends the following: Remedy
    S I 19,907 in unsupported personnel expenditures andS32,Y73 in Imo5uPIXll"lcd fringe benefit charges.

    GEMS' Respon se 10 Recommendalion I ; GEMS is in non-com;urrence with th is recomrnendlltion. as we do
    not agree with the reasons the OIG has given for this recommendation. In order to bcstjustify our non­
    concurrence, we would like to refer to each of the reasons given within the draft audit report SCllarately;

    On page 7 of the draft report, the OIG notoo that "GEMS generally correctl), computed, properJ)' authori:ed,
    and accuratel), recorded personnel expendilllres and accompanyingfrlnge benefits charged to ,hi., grant."
    GEMS appreciates th at the OIG has noted the accuracy and compliancy of its policie~ an d procedurcs for
    recording personnel expenditures, especially since the organization has taken great care in developing and
    implementing a system that is in compliance with documented federal fiscal requirements. GEMS believes it is
    contradictory for the OIG to question all personnel and fringe expenditures charged to this grllnt when it agrees
    that GEMS' system for recording these cl<pcnditures i5 "generall y correct."

    On the same page, the OIG seemingly goes against its previous statement by attesting tha t "GEMS did nat have
    an adequate process in place 10 document the a/focation of each o5taifmember·o5 actrw' activit)' c"arged to the
    g rant." The OIG backs up this opinion by citing 2 C.F.R. § 2)0, which "reql,;re.~ th(ll personnel c"arges to
    (lWUrt/s be s/fpported b)' per~'onnel activity repo/"o5," During th e audit, GEMS was not asked to s how proof of
    personnel activity reports. but ruther allocated timeshects documenting the percentage oftime elLch statT
                                                                                                       ffMw ... , .... " ' _

                                                                                                       ,,.,,.....
                                                            .. .                                       - ............ .
                                             ,.                                                        .... l .. _ NT 1I0:t
                                                                                                       " l t h _ ...

                     ,.                              ."..              ,.,'
                                                                                                                   ",
                                                      "                       •                                      """~




                                                        - 20 -
 
member allocated to specified contracts on a daily basis. Upon having been made aware of this requirement
while at an OVW Fiscal Conference 2009, GEMS began an extremely time-consuming and difficult process of
trying to create and implement an allocated timeshcet system that accwately accounted for the organization's
many different programs funding sources. This process involved extensive research, attending trainings and
discussions with other public organizations, including a conference call with the Office of the Chief Financial
Officer. Not once during this process was GEMS able to obtain clear and consistent expectations that would
assist in creating a timesheet that would fit its needs. Nevenheless, at the time of the audit, GEMS had managed
to reach the final stages of implementing its own allocated timcshet:t system. This system was, as explained in
the draft audit report, reviewed with the orG auditors. What GEMS did not know, however, was that the QIG
would have accepted personnel activity reports as described by the CFR in place ofthcse timeshects. Having
not been made aware of thi s during either the OVW training in 2009 or the audit itself, the organization was not
in a position to present these materials, which would have otherwise been made available.

On page 9 of the draft audit report, the OIG details GEMS' allocation spreadsheet, which was used by the
organization to chart thc actual aVeJ"age time and eITon each staff member was putting towards each program
and funding sourec. The OIG claims that the allocation sprcadsheet was inadequate for supporting the allocation
of personnel costs because it " ... was not based on actual actil'ities performed by lire SlUff. j,wead il was based
on budgeted percenwges ... " This statement is not truc. In fact, the reverse is true, as was explained several
times to the auditors while they were both on and oIT-site: The allocations wi thin GEMS' allocation spreadsheet
have always becn based on actual activities pcrfonned by staff. II is then that salary allocutions arc assigned to
contracts aecording to the uctual percentages calculated- not the other way around. We at GEMS ftel that
perhaps there was a misunderstanding during the communication of this fact. We nrc attaching to this rcsponse
email correspondence between our staff and the O IG that was used to, at the OIG's request, further clarify the
process described above in the days following thc audit.

GEMS would likc to point oul another misunderstanding cited on page 12 of the draft audit repon. It is herc that
the report states, "The offiCial GEMS limeshect had a program column Ihat staff members COllkJ ILte to allocate
lime spent on granl-specific activities. GEMS officials lold us tlratllre originollimesheel was mo.ftlikely
modeled after a generiC lIon-profittimesheet and il did notllnderstand the imporlance ofllSing the program
column." The comment from GEMS officials mentioned in this quote has becn misinterpreted. It was never
meant to imply that GEMS does not understand the importanccofallocating ti me towards specific programs
and their corresponding sources of fundi ng. If this were the case, GEMS would not take the care it does to
accurately allocate staff time and effort across departments, programs, and funding sourccs, nor would it make
sure to maintain scparate fiscal accounts for each of its federal contracts. The comment cited abovc was meant
to explain that GEMS did not feel the program column fit the purpose it needed to serve in order to bc in
compliance: The program column included in GEMS' originaltimesheets was never designed to allocate staff
timc and effort to specific contracts, but rather to specific programs. cach of which were maintained by several
different funding sources. Because programs at GEMS cannot be matched cxclusively to any single source of
funding, the program column could not have been used to accurately "allocate time spent on grtmt-specijic
activilies" as was suggested in the draft audit report.



                                                                                                    . 'I ....• ,\O\~ 'k ... 1


        , ,,, "              "   .,             • • ,I   "   .   "."   ." .
                                                                                                    N~ ... V('. ""IJ."'
                                                                                                    111 '10 8M. I- I
                                                                                                    112'~'''3''a .
                                                                                                    wwwp· ......   r.:. ...... Q




                                                         - 21 - 
  GE~S     "'.
In conclusion, GEMS docs not feel that the arguments that have been sct forth in favor of this recommendation
IIrc based on IIccurale observations. In concurrence wi th the 010 's statement thaI G EMS' processes for
allocating personnel and fringe expenditures arc "generally correct," GEMS does in fact have the ability to
produce personnel activity statements, does follow II policy in which personnel allocations an:: based on actual
activities, and does understand the importance of allocating lime towards grant-specific activitics. That said,
GEMS recognizes that the OIG 's opinions surrounding this finding were based upon an honest, detailed review
of GEMS' infrastructure that was solely conducted for the purpose of upho lding fcdernl fiscal r egulations. The
finding has reaffinncd for GEMS the importance of documenting staff time and effort aCCQrding to st:parate
funding sources, and GEMS will continue to enforce its allocated timesheet system while also conducting and
doeumcnting monthly person nel activity reports as described by 2 C.r. R. § 230. OEM S looks forward to
receiving additional ass istance from the 0 10 andlor OVW in ensuring that its new systl:m meets all federal
requirements.

Remed y Recommen dati on 1: Office oftbe Inspector General (DIG) recommends the following: Remedy
1/,359 in unsupported non-personnel andfringe benefit gralll expendifllres.

GE MS' Response to Recommendation 1: GEMS is in non- concurrence with tbis findi ng beca use, with the
exception ofSS.71, the organization has always had supporting docum~'Tl lation for these qucstioned costs on
file. Because th e $1,359 in non-personnel and fringc benefit cllpenditures question~-d was not detailed in the
draft audit report, GEMS had to reach out to its O[G auditors to eonfinn that this total was made up of the
following items:

    •   $1 ,350 in Metro Cards for wh ich there was, according to the DIG, a purchase request but no invoice
    •   Program supplies from Target supported by a receipt for $2S7.65 but documented as being for $296.36
        via GEMS' fiscal software, res ulting in a questioned difference ofSS. 71

Upon receiving this breakdown from the auditors, GEMS pulled the invoice for the S I.350 in Metro Cards and
sent a scanned copy to the DIG. GEMS does not have any record of this expenditure being disputed during the
audit. As for the SS.71 , GEMS would like to point out the diminutive nature oflhis COSI. We feel that our ability
to quickly pull documentation for all but S8.71 of the expenditures selected for review speaks to GEMS' solid
fiscal policies, proced ures, abilities, and adherence to federal policies. However, in taking note of this small
discrepancy, G EMS has made sure to pay closer attention to detail whcn cross-checking expense reports and
their supporting doeLimentation.

Remed y Recommendation 3 : Office oflhe Inspector General (DIG) recommends the following: Ensure
GEMS h(lS implemented ant/ adheres to procedrlres that will result in the acerlrate submission of RecoVl.'ry Act
reports.

GE MS I Response to Reconlmend at ion 5: GEMS is in non-concurrence with the DIG's ~mmendation for
two reasons:




                                                   .,
                                                                                                   "lI w·",U


                             .
                                                                                                                  )to ......
                                                                                                   _   v""'. Ilf lrol'
                 ".         •              ,'1 •                                                   1IHnlOll'H-t
                      '.'       "      "
                                                    .,         • ",.'
                                                              ~,
                                                                                                   '" 'u 79&1 "".
                                                                                                   W II""" ~"·'"P
                                                                                                    _




                                                         - 22 - 
   I. At the time ofthe audit, the errors in FTE calculations had already been discovered and addressed by
      GEMS staff. GEMS' OVW program officcrs were involved in correspondence surrounding thc errors
      and how to prevent them in the future.
   2. Chapter [6 of the ARRA Reporting User Guide states that "rmder no circllmstances can the FTE
      calcillations on the past reports he chal/ged." Therefore, alteration GEMS' reports containing inaccurate
      FTEs is currently impossible.

GEMS would like to point out that errors in FTE calculations were prominent among ARRA gmnte!..'!!, and thai
the FTE Calcuilltor mentioned in the draft audit report was created as a method for amending widespread
confusion surrounding how to calculatc FTEs for this specific report. GEMS is grateful for the FTE Calculator,
and now uses it to ensure the accuracy of its FTEs prior to 1512 report submission. Upo n examining GEMS '
more recent 1512 reports, the OIG will find that GEMS' FTE calculations have been consistently accurate.

GEMS thanks the OIG for thc opportunity to respond to this draft audit report. We are availablc to answer any
questions regarding our requests for reconsideration, and remain ready and willing to work with the OIG and
OVW to ensure ongoing compliance with our federal contracts, for which we arc consistently grateful.

Sincerely,




Rachel Lloyd
Founder and Executive Director




                                                                                                nUW~d , .t""~.,   ••,
                                        .. ,   ,., .
                                                                                                H w Y",k In 11)0.\9
                                                                                                'n 11.110 ...
             ".
                          .. ,..,   "
                                               .,
                                               or I·
                                                         ,,'
                                                         "
                                                                 ,,·u' .
                                                                                                ,n lU,,,.ta.
                                                                                                -11".......10,''',




                                                       - 23 - 
                                                                                                APPENDIX IV

                                                                                                            


                OFFICE ON VIOLENCE AGAINST WOMEN 

               RESPONSE TO THE DRAFT AUDIT REPORT 



                                                           u.s. Department of Justice
                                                           Offi ce on Viol ence Against Women




                                                           1"'uJhington. DC 205.W

                                                                                    October 27, 20 II


    MEMORANDUM


    TO:                    Thomas O . Puerzer
                           Regional Audit Manager
                           Philadelphia Regional Audit Office

    FROM:                  Susan B. Carbon
                           Director
                           Office on V iolence Against Women

                           Rodney Samuels              .~
                           Audit Liaison/Staff Accountant
                           Office on Violence Against Women

    SUBJECT:              Audit of the Office on Violence Against Women Cooperati ve Agreement
                          Ad ministered by Girls Education and Mentoring Services (GEMS)
                          New York, New York


    This memorandum is in response to yo ur correspondence dated September 20 II transmitting
    the above draft audit report for GEMS. We consider the subj ect report resolved and req uest
    written acceptance of this action from your office.

    The report contains three recommendations and $154,239 in unsupported grant ex penditures.
    The Office on Violence Against Women (OVW) is committed to working with th e grantee to
    address each item and bring them to a close as quickly as possible. The fo ll owing is an analysis
    of the audit recommendations:

       1.      Remedy $119,907 in unsupported personnel expenditures and $32,973 in
               unsupported fringe benefit charges.

               After review of the OIG Report referenced above and GEMS response to the report,
               OVW does feel that it is imperative that each grantee be responsible for keep ing
               record of all personnel and fringe benefit charges against our funds. OVW will
               coordinate efforts with GEMS to remedy the $ 11 9,907 in unsupported personnel
               expenditures and $32,973 in unsupported fringe benefit charges.




                                                 - 24 -
 
      2.      Remedy $1,359 in unsupported non-personnel and fringe benefit grant
              expenditures.

              After review of the OIG Report referenced above and GEMS response to the report,
              OVW does feel that it is imperative that each grantee be responsible for keeping
              record of all non-personnel and fringe benefit grant expenditures charged against
              our funds. OVW will coordinate efforts with GEMS to remedy the $1 ,359 in
              unsupported non-personnel and fringe benefit grant expenditures.

      3.      Ensure GEMS has implemented and adheres to procedures that will result in
              the accurate submission of Recovery Act reports.

              After review of the OIG Report referenced above and GEMS response to the report,
              OVW does feel that it is imperative that each grantee be responsible for sUbmitting
              accurate reports, specifically Recovery Act reports. OVW wi ll coordinate efforts
              with GEMS to ensure that they implement and adhere to procedures that wi ll result
              in the accurate submission of Recovery Act reports.


We appreciate the opportunity to review and comment on the draft report. We will continue to
work with GEMS to address the recommendations. If you have any questions or require
additional information, please contact Rodney Samuels of my staff at (202) 514-9820.

cc:        Richard Theis
           Assistance Director
           Audit Liaison Group
           Justice Management Division

           Angela Wood
           Budget Officer
           Omce on Violence Against Women

           Sharon Elliott
           Program Specialist
           Omce on Violence Against Women




                                                 2




                                              - 25 - 
                                                                  APPENDIX V 


    OFFICE OF THE INSPECTOR GENERAL ANALYSIS AND SUMMARY OF
              ACTIONS NECESSARY TO CLOSE THE REPORT

       The OIG provided a draft of this audit report to the Girls Educational
and Mentoring Services (GEMS) and the Office on Violence Against Women
(OVW) for review and comment. GEMS’ response is included as Appendix III
of this final report, and OVW’s response is included as Appendix IV. The
following provides the OIG analysis of the response and summary of actions
necessary to close the report.

Recommendation Number

1. Resolved. OVW concurred with our recommendation to remedy the
   $119,907 in unsupported personnel expenditures and $32,973 in
   unsupported fringe benefit charges for the grant. OVW said in its
   response that it would coordinate with GEMS to remedy the $119,907 in
   unsupported personnel expenditures and $32,973 in unsupported fringe
   benefit expenditures for the grant.  

     In its response, GEMS disagreed with our recommendation. Specifically,
     GEMS stated that it is “contradictory for the OIG to question all personnel
     and fringe benefit expenditures charged to the grant when it agrees that
     GEMS’ system for recording these expenditures is generally correct.” In
     addition, GEMS stated that it was not made aware of the requirement for
     activity reports allocating appropriate amounts of personnel charges to
     multiple grants until a 2009 OJP Conference. GEMS further stated that,
     during the audit, it was not asked to provide personnel activity reports,
     but rather allocated timesheets. We considered these and related
     statements in GEMS’ response and provide the following analysis and
     response.

     While our draft report did not contain contradictory statements, our
     conclusions about GEMS’ compliance with grant requirements may have
     been misinterpreted. On page 7 of the report, we detailed the personnel
     expenditure testing that we conducted and defined the context of the
     terms we used to describe GEMS’ compliance or non-compliance.
     However, to ensure that the report clearly describes the areas of
     compliance and their differences with the areas of non-compliance, we
     made clarifications to the body of this report to eliminate conclusions of
     GEMS’ compliance using defined terms. Instead, we provided detailed
     conclusions that thoroughly specify the scope and specificity of the
     statements identifying compliance with grant requirements.



                                      - 26 -
 
Our draft and final audit report described the results of our testing and
concluded that GEMS did not have an adequate process in place to
document the allocation of each staff member’s actual activity charged to
the grant. As a result, we questioned $119,907 in unsupported personnel
expenditures and $32,973 in unsupported fringe benefit charges for the
grant. When GEMS accepted the awards, it certified that it agreed to fully
comply with requirements for personnel expenditures charged to the
grants, including personnel activity reports when salaries apply to the
execution of two or more grant programs, cost activities, project periods,
and/or overlapping periods. However, GEMS stated in its response that it
was not aware of this requirement until a 2009 OJP Conference. If GEMS
was not clear about its responsibilities under the grant agreement, GEMS
officials could have obtained additional guidance and training from OVW
sufficient to ensure that it was adhering to the grant requirements.
GEMS’ statement that it was unaware of the requirements until an OJP
training conference in 2009 and until our audit was performed does not
absolve GEMS of its responsibility to maintain documentation that
supports the use of grant funding for personnel and fringe benefit
expenditures in accordance with the terms and conditions of the grant
award.

Further, GEMS also stated in its response that it was not asked to provide
personnel activity reports, but rather timesheets documenting the
percentage of time each staff member allocated to specific contracts on a
daily basis. Multiple times during our field work and also at our exit
conference, we requested from GEMS officials supporting documentation
that showed the allocation of personnel and fringe benefit expenditures
charged to the grants. In addition, on page 6 of the draft audit report,
we referred to 2 C.F.R. Part 230 (formerly known as OMB-Circular A-
122), that requires personnel charges be supported by personnel activity
reports. However, GEMS did not provide these reports in its written
response. During our audit, GEMS only provided timesheets and payroll
registers and never mentioned that it had any other type of
documentation that would potentially satisfy this requirement. In
addition, GEMS’ response inaccurately described our discussions
regarding a new time tracking system. Specifically, the response states
“this system, as explained in the report, was reviewed with the OIG
auditors.” While the OIG was made aware of this new allocated
timesheet system and received a copy of what the timesheet would look
like, we did not perform any review or testing of this system because it
was not implemented at the time of our audit. Therefore, we cannot
ensure it was ever implemented or, if implemented, working as intended.




                                - 27 - 
In its response, GEMS also referred to page 8 of the audit report that
discusses the allocation spreadsheet used. Specifically, our report states
the spreadsheet “was not based on actual activities performed by the
staff, instead it was based on budgeted percentages.” GEMS stated that
this was incorrect, and that the allocations within GEMS’ allocation
spreadsheet were always based on actual activities performed by its staff.
During our audit field work, GEMS staff stated that, “once budgets are
approved by the government, the fiscal consultant is given the current
approved budgets and the percentages from there.” In addition, we
requested from GEMS multiple times during our field work and at our exit
conference supporting documentation that showed that the allocation of
personnel and fringe benefit expenditures charged to the grants was
based on actual work performed. GEMS did not provide us with any of
the supporting documentation we requested during fieldwork or at the
exit conference, or in its response to the draft report that would support
its response to our audit report. The email correspondence that GEMS
cited in its response provided GEMS’ explanation, but did not include any
verifiable documentation that the amounts allocated were those actually
worked by staff. For example, the hours worked according to the
timesheets for each staff member could not be reconciled to the GEMS
allocation spreadsheets.

GEMS response also referred to page 7 of the audit report which states,
GEMS officials told us that the original timesheet was most likely modeled
after a generic non-profit timesheet and GEMS did not understand the
importance of using the program column.” GEMS said the OIG
misinterpreted this information and that the comment from the GEMS
official was not meant to imply that GEMS did not understand the
importance of allocating time towards specific programs and the
corresponding sources of funding. GEMS further stated in its response
that the intention of its comment was to explain that it did not feel the
program column fit the purpose it needed to serve in order to be in
compliance. GEMS also stated in its response it takes care to accurately
allocate staff time and maintain separate accounts for each of its fiscal
contracts. It appears that GEMS has interpreted our quote of the
statement as an implication that GEMS did not take its grant
management responsibilities seriously. We included the statement to
provide GEMS officials’ views with regard to the program column on the
timesheet. We do not offer any further interpretation or analysis of
GEMS’ intention for this statement. However, in an effort to provide a fair
and balanced report, we added to the relevant section of this final report
the subsequent clarification GEMS provided in its response.




                                 - 28 - 
  Although GEMS’ response stated it was aware that the program column
  on the timesheet in use was not adequate, during our audit GEMS was
  unable to provide any evidence of other measures or controls that were
  taken to ensure compliance with this particular grant award requirement
  under 2 C.F.R., Part 230 (formerly known as OMB-Circular A-122), that
  says personnel charges must be supported by personnel activity reports.

  GEMS also said that the program column was never designed to allocate
  staff time and effort to specific grants, but rather to specific programs,
  each of which was maintained by several different funding sources. We
  modified this final report to clarify this point. Moreover, GEMS said that
  because its programs cannot be matched exclusively to any single source
  of funding, the program column could not have been used to accurately
  allocate time spent on grant-specific activities. While we recognize that
  GEMS’ programs may be funded by several funding sources, including
  Department of Justice grants, grantees must be able to separate costs for
  each grant. Therefore, GEMS should have tracked personnel time and
  effort for each grant, particularly for those employees that work on
  several different grants. Because GEMS did not adhere to this
  requirement, we provided this recommendation to remedy the associated
  costs.

  Finally, GEMS stated that the arguments set forth supporting this
  recommendation were based on inaccurate observations. However, as
  we discussed in the audit report and in this response, all of our
  conclusions are based on accurate and verifiable evidence. These costs
  were questioned because GEMS did not provide us with adequate
  personnel activity reports that contained the information required by the
  OJP financial guide. While GEMS stated in its response it had the ability
  to produce activity reports, we were not provided with any activity
  reports that adhered to the requirements of the OJP Financial Guide.
  None of the issues discussed in GEMS’ response, or the documents
  provided during our audit, have resolved these questioned costs.

  This recommendation can be closed when we receive evidence that OVW
  has appropriately remedied the $119,907 in unsupported personnel
  expenditures and $19,973 in unsupported fringe benefit charges.

2. Closed. OVW concurred with our recommendation to remedy the $1,359
   in unsupported non-personnel and fringe benefit grant expenditures.

  In its response, GEMS disagreed with our recommendation and supported
  its position by saying that it has always had supporting documentation for
  these questioned costs on file, with the exception of $8.71. During our


                                  - 29 - 
  field work, we provided GEMS with a list of transactions that we found
  unsupported. During that time, GEMS provided us with additional support
  but the documentation for the Metro card transit expenditure was for the
  wrong period. In response to our draft report, GEMS provided us with
  adequate documentation to support the specific $1,350 in Metro card
  charges for public transit. The remaining $8.71 in unsupported
  expenditures is immaterial and, as a result, we consider this
  recommendation closed.

  This recommendation is closed based on the $1,350 in supporting 

  documentation provided by GEMS, and our determination that the 

  remaining unsupported grant expenditures were immaterial. 


3. Resolved. OVW agreed with our recommendation to ensure GEMS
   implements and adheres to procedures that will result in the accurate
   submission of Recovery Act reports.

  In its response, GEMS disagreed with our recommendation and supported
  its position by saying that at the time of the audit, the errors in the Full
  Time Equivalent (FTE) calculations had already been discovered and
  addressed by GEMS staff. GEMS also said that grant program officers
  were involved in correspondence surrounding the errors and how to
  prevent them in the future. During audit field work, we tested selected
  Recovery Act reports and could not recalculate the amount of FTEs GEMS
  reported on its quarterly Recovery Act reports for the second and third
  quarters of 2010 based on the information GEMS provided. We
  determined errors occurred and asked GEMS officials for a reason why.
  We were told it was because GEMS thought it should be reporting
  positions as FTEs, even though only portions of staff salaries were
  charged to the grant. GEMS did not notify OVW of these errors until we
  brought it to their attention in April 2011.

  The second reason that GEMS disagreed with this recommendation was
  because Chapter 16 of the ARRA Reporting User Guide states that “under
  no circumstance can the FTE calculations on the past reports be
  changed.” We are not prescribing that GEMS go back and change past
  reports, but that GEMS implement procedures that result in the accurate
  submission of Recovery Act Reports.

  This recommendation can be closed when we receive documentation
  demonstrating that these procedures have been implemented.




                                   - 30 - 
